No. _____________
IN THE SUPREME COURT OF THE UNITED STATES
______________________________________
DAVID EMMONS STONE,
Movant
v.
STATE OF MARYLAND,
Respondent.
________________________________________
EMERGENCY APPLICATION FOR A STAY OF THE MANDATE OF
THE MARYAND COURT OF SPECIAL APPEALS
PENDING THE FILING OF A
PETITION FOR WRIT OF CERTIORARI
__________________________________________
Brent E. Newton
Attorney at Law
19 Treworthy Road
Gaithersburg, Maryland 20878
(202) 975-9105
brentevannewton@gmail.com
Counsel of Record for Movant

TABLE OF CONTENTS
Questions to Be Presented in a Petition for Writ of Certiorari . . . . . . . 5
Procedural History . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Statement of the Relevant Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Reasons for Staying the Mandate of the Maryland Court of Special
Appeal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Movant Has Satisfied the Standard for a Stay of the Mandate. . . . . 14
The Maryland Court of Special Appeals Deprived Movant
of His Only Opportunity for Meaningful Judicial Review of
His Compelling Ineffective Assistance of Counsel
Claim and Related Insufficient-Evidence Claim. . . . . . . . . . . . . . . . 16
Movant’s Trial Counsel Was Ineffective by Failing to
Move for a Judgment of Acquittal on the
Continuous-Course-of-Conduct Theft Charge. . . . . . . . . . . . . . . . . . 19
At the Very Least, Because the Record Supports a
“Colorable” Claim of Ineffective Assistance of Counsel,
Movant’s Case Should Be Remanded to the Trial Court
to Conduct an Evidentiary Hearing on That Claim Before
Commencing a Retrial. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
There is a Widespread Division Among the Lower
Courts on the Subsidiary Insufficient-Evidence Issue
Raised in this Case. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Certificate of Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

2

TABLE OF AUTHORITIES
Cases
Burks v. United States, 437 U.S. 1 (1978) . . . . . . . . . . . . . . . . . . . 12, 16, 18
Dyson v. State, 878 A.2d 711 (Md. Ct. Sp. App. 2005) . . . . . . . . . . . . . . . 20
Jackson v. Virginia, 443 U.S. 307 (1979) . . . . . . . . . . . . . . . . . . . . . . . . . 22
Justices of Boston Mun. Court v. Lydon, 466 U.S. 294 (1984) . . . . . . . . . . 12
Henry v. Mississippi, 379 U.S. 443 (1965) . . . . . . . . . . . . . . . . . . . . . . 5, 18
Maryland v. King, 567 U.S. 1301 (2012) (Roberts, C.J., in chambers) . . . 14
Martinez v. Ryan, 566 U.S. 1 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Monroe v. State, 191 So. 3d 395 (Fla. 2016) . . . . . . . . . . . . . . . . . . . . . . . 17
Murray v. Carrier, 477 U.S. 478 (1986) . . . . . . . . . . . . . . . . . . . . 10, 11, 18
North Carolina v. Pearce, 395 U.S. 711 (1969) . . . . . . . . . . . . . . . . . . . . 16
People v. Chipman, 370 P.3d 330 (Colo. App. 2015) . . . . . . . . . . . . . . . . 16
Richardson v. United States, 468 U.S. 317 (1984) . . . . . . . . . . . . . . . . . . 25
State v. Hunt, 432 A.2d 479 (Md. Ct. Sp. App. 1981) . . . . . . . . . . . . . . . . 20
State v. Noll, 527 N.W.2d 644 (Neb. App. 1995) . . . . . . . . . . . . . . . . . . . 24
Stone v. State of Maryland, No. 1192,
2021 WL 514287 (Md. Ct. Sp. App. Feb. 11, 2021) . . . . . . . . . . . . . . passim
Strickland v. Washington, 466 U.S. 668 (1984) . . . . . . . . . . . . . . . . . . . . 21
United States v. Knight, 824 F.3d 1105 (D.C. Cir. 2016) . . . . . . . . . . . . . . 23
United States v. Mohammed, 693 F.3d 192 (D.C. Cir. 2012) . . . . . . . . . . . 13

3

United States v. Ortiz-Vega, 860 F.3d 20 (1st Cir. 2017) . . . . . . . . . . . . . . 23
Statutes and Court Rules
28 U. S. C. § 2101(f) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Supreme Court Rule 23 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
MD Code, Criminal Procedure, § 7-101 . . . . . . . . . . . . . . . . . . . . . . . . . . 17

4

QUESTIONS TO BE PRESENTED IN A PETITION FOR WRIT OF
CERTIORARI
1. When an appellate court reverses a defendant’s conviction based
on trial error, should that court, before remanding for a retrial,
address the merits of the claim that the defendant’s trial counsel
provided ineffective assistance by failing to move for a judgment
of acquittal based on clearly insufficient evidence or, at least,
remand for a hearing on the ineffectiveness claim to occur before a
retrial commences?
2. In view of the requirements of the Fifth Amendment’s Double
Jeopardy Clause, must an appellate court on a defendant’s direct
appeal address the merits of a claim of insufficient evidence before
reversing the defendant’s conviction and remanding for a retrial
based on a trial error? Several lower federal and state appellate
courts are divided on this issue.
3. Did the Maryland Court of Special Appeals’ refusal to provide
judicial review of movant’s ineffective-assistance-of-counsel and
insufficient-evidence claims on direct appeal unconstitutionally
deprive movant of his only opportunity for judicial review of those
related federal constitutional claims? See Henry v. Mississippi,
379 U.S. 443, 447-48 (1965) (“[A] litigant’s procedural defaults in
state proceedings do not prevent vindication of his federal rights
unless the State’s insistence on compliance with its procedural rule
serves a legitimate state interest. In every case we must inquire
whether the enforcement of a procedural forfeiture serves such a
state interest. If it does not, the state procedural rule ought not be
permitted to bar vindication of important federal rights.”).

5

TO CHIEF JUSTICE ROBERTS, CIRCUIT JUSTICE FOR THE
UNITED STATES COURT OF APPEALS FOR THE FOURTH
CIRCUIT:
Pursuant to 28 U. S. C. § 2101(f) and Supreme Court Rule 23, the
movant, David Emmons Stones, applies for a stay of the issuance of the
mandate of the Maryland Court of Appeals pending his timely filing of a
petition for writ of certiorari with this Court. Although the Court of Special
Appeals’ mandate has not yet issued, it will be issued in the immediate
future without a stay from this Court. As explained below, if movant’s case
is remanded for a retrial, a retrial will both potentially moot the issues in this
case and also constitute a violation of the Fifth Amendment’s Double
Jeopardy Clause. Therefore, movant seeks a stay so that he may file a
timely petition for writ of certiorari with this Court.
In support of this motion, movant submits the following:
PROCEDURAL HISTORY
On February 28, 2019, in the Circuit Court for Cecil County,
Maryland, a jury acquitted movant of multiple counts in the indictment,
including Count 7 (theft by “unauthorized control”), but convicted him of
Count 9 (“continuing course of conduct” theft), which concerned the same
alleged stolen property as the property alleged in Count 7. On August 20,
2019, the trial court sentenced movant to eight years of imprisonment and

6

ordered him to pay restitution in the amount of $50,000 (T3.16).1 Movant
appealed to the Maryland Court of Special Appeals.
On February 11, 2021, the Court of Special Appeals reversed
movant’s conviction of Count 9 based on a trial error related to the trial
court’s submission of a lesser-included offense option in the verdict form
and remanded for a retrial.

However, the state appellate court refused

movant’s request to address the merits of movant’s ineffective-assistance-ofcounsel claim and a related insufficient-evidence claim. David Emmons
Stone v. State of Maryland, No. 1192, 2021 WL 514287 (Md. Ct. Sp. App.
Feb. 11, 2021) (attached as Appendix A). On March 1, 2021, the Maryland
Court of Appeals denied movant’s petition for writ of certiorari and motion
to stay the mandate of the Maryland Court of Special Appeal (attached as
Appendix B). As noted, although the mandate has not been issued, it will
be issued in the immediate future without a stay.
STATEMENT OF RELEVANT FACTS
The evidence at trial permitted a rational jury to find that movant had
possession of the complainant’s property, a collection of sports memorabilia
such as baseball cards, in movant’s commercial storage unit. However, as
1

As used in this motion, “T1” refers to the transcript of movant’s jury trial on February
27, 2019; “T2” refers to the transcript of movant’s jury trial on February 28, 2019; and
“T3” refers to the transcript of the sentencing hearing, which occurred on August 20,
2019.
7

the prosecutor essentially conceded at trial and further discussed below, the
evidence at trial did not permit a rational jury to find beyond a reasonable
doubt that movant had taken that property in multiple thefts comprising more
than one criminal transaction constituting a “continuing course of conduct.”
At the close of the evidence at trial, movant’s trial counsel
successfully moved for a judgment of acquittal on other counts in the
indictment but did not move for a judgment of acquittal on Counts 7 and 9
(T2.84-86, 88, 177.) In his closing argument, the prosecutor explained those
two alternate theft charges to the jury:
[T]he big difference in the last two theft charges, one is called
theft by way of unauthorized control over somebody else’s
property. . . . So there’s two different ways. I’m putting it up to
you to decide what you believe happened here. One would be
that all in one shot Mr. Stone found this storage locker, found
what was inside, took everything that he thought was of value,
and left and moved it elsewhere in his possession where
somebody else wouldn’t know about it.
The other version of that would be that over a course of time,
meaning more than one day or more than one instance, that he
removed some of this property over what is called a continuing
course of conduct or scheme. The evidence we have is that Mr.
Cabahug [the complainant] checked on his unit in July [2018].
He doesn’t come back until October 24 [2018]. So we have a
little more than a month where Mr. Stone is at Whalen’s
[Storage Unit] at the end of August through the beginning of
October. So there’s two possibilities, okay? . . . .
It’s up to you to decide . . . whether you think it happened all at
once or whether it happened over a period of time. I can’t tell
you which one because no one knows which one, or at least no
8

has told us which one that is. . . .
(T2.205-06, 208) (emphasis added).
The trial court instructed the jury consistent with the prosecutor’s
explanation of the two alternate theft charges:
Then lastly there is a charge of theft, two different versions.
The first version or definition is theft, unauthorized control.
The defendant, Mr. Stone, is charged with the crime of theft. In
order to convict the defendant of theft, the State must prove that
the defendant willfully or knowingly obtained or exerted
unauthorized control over the property of the owner, and that
the defendant had the purpose of depriving the owner of the
property, and the value of the property was over $100,000. . . .
Mr. Stone is also charged with the crime of theft greater than
$100,000 pursuant to a continuing course of conduct. In order
to convict the defendant under this charge of theft pursuant to a
continuing course of conduct, the State must prove all the
elements of theft. Course of conduct means a persistent pattern
composed of a series of acts over time that shows a continuity
of purpose.
Stone v. State, 2021 WL 514287, at *2-*3 (quoting the trial court’s jury
instructions; emphasis added).
The jury returned its verdict acquitting movant of Count 7 (the
unauthorized-control theft count) but convicting him of Count 9 (the
continuing-course-of-conduct theft count) (T2.239-40).
On appeal to the Court of Special Appeals, movant contended that the
trial court erred by submitting a lesser-included offense option on the verdict

9

form regarding the continuing-course-of-conduct theft charge2 over both
parties’ objections, and the State on appeal conceded error on this point. See
Appellant’s Brief and Appendix, at 14-19; Brief of Appellee, at 16-22. In
addition to that claim of trial error, movant also raised, among other
additional claims, an ineffective assistance of counsel claim.
Appellant’s Brief and Appendix, at 19-24.

See

That claim contended that

movant’s trial counsel provided ineffective assistance by failing to move for
a judgment of acquittal at trial on the continuing-course-of-conduct theft
charge because the prosecution offered no evidence of multiple acts of theft.
Movant explained to the Court of Special Appeals that this
ineffective-assistance-of-counsel

claim

ultimately

concerned

the

insufficiency of the evidence supporting the sole count of conviction in this
case.

Citing this Court’s decision in Murray v. Carrier, 477 U.S. 478

(1986), he contended that, if the state appellate court were to determine that
movant’s trial counsel provided ineffective assistance of counsel by failing
to move for a judgment of acquittal on Count 9, that would permit the state
appellate court to excuse the procedural default that occurred and address the
merits of the movant’s claim that there was insufficient evidence supporting
2

Notably, the trial court submitted the lesser-included offense option – permitting the
jury to convict movant of theft of property valued between $25,000 and $99,999 – only
concerning Count 9 (but not also concerning Count 7). The trial court did so based on the
jury’s note about the $100,000 or more “value” element in Count 9. The jury did not ask
the same question concerning Count 7.
10

the continuing-course-of-conduct theft conviction. See Appellant’s Brief
and Appendix, at 24 & n.11 (quoting Murray, 477 U.S. at 48 (“Ineffective
assistance of counsel . . . is cause for procedural default.”)).
Movant also pointed that, if the Court of Special Appeals reversed his
conviction based on the State’s concession of error about the trial error and
remanded for a retrial without addressing the merits of movant’s
ineffectiveness claim, then movant would be deprived of judicial review of
the ineffectiveness claim and the related insufficient-evidence claim. See
Appellant’s Reply Brief, at 11; Appellant’s August 21, 2020 Letter Brief. As
movant stated in his letter brief filed several weeks before the oral argument:
[I]n view of the State’s concession that Mr. Stone’s sole
conviction must be reversed for legal error in the jury’s verdict
form, this would not be an appropriate case to defer the
ineffectiveness claim to post-conviction proceedings – for the
simple reason that, if this Court agrees with the State’s
concession of error, there will not be any post-conviction
proceedings. Thus, the only opportunity for a court to address
Mr. Stone’s claim of ineffective assistance of counsel would be
at this juncture on direct appeal.
There is an additional, compelling reason to address the
ineffectiveness claim now. If this Court agrees that trial
counsel was ineffective in failing to move for a judgment of
acquittal on the “continuing course of conduct” theft charge,
then this Court can and should reach the merits of the
underlying issue of whether there was constitutionally
insufficient evidence, as Mr. Stone requested in his opening
brief. See Murray v. Carrier, 477 U.S. 478, 488 (1986)
(“Ineffective assistance of counsel . . . is cause for a procedural
default.”).
11

This Court also should reach the sufficiency issue (assuming
the Court finds ineffectiveness) because, likewise, this would
be the only opportunity for that issue to be addressed. “[W]hen
a defendant challenging his conviction on appeal contends both
that the trial was infected by error and that the evidence was
constitutionally insufficient, the court may not, consistent with
Burks v. United States, [437 U.S. 1 (1978)], ignore the
sufficiency claim, reverse on grounds of trial error, and remand
for retrial.” Justices of Boston Mun. Court v. Lydon, 466 U.S.
294, 321-22 (1984) (Brennan, J., concurring) . . . .
Appellant’s August 21, 2020 Letter Brief, at 1-2 (emphasis in original).
At oral argument on October 8, 2020, the members of the panel and
counsel for the parties specifically discussed this very issue. Counsel for
movant again stressed that, if movant’s ineffectiveness claim were not
addressed on direct appeal, that claim – and the related insufficient evidence
claim – would be denied judicial review because there would be no other
opportunity for judicial review of the claims.3 In a post-argument letter brief
filed immediately after the oral argument, movant further stated:
[I]f this Court believes that additional factual development is
necessary to resolve the ineffectiveness claim, then this Court
should remand to the trial court to conduct a limited evidentiary
hearing about why trial counsel did not move for a judgment of
acquittal on the charge in Count 9 and then send the case back
to this Court to rule on the issue. See United States v.
Mohammed, 693 F.3d 192, 202, 205 (D.C. Cir. 2012) (“When
3

The video recording of the oral argument is available at:
https://www.courts.state.md.us/sites/default/files/import/cosappeals/media/202010
08_1192.mp4. The discussion of the issue by counsel and the panel is evident at 10:0011:03 and 21:40-45 on the recording.

12

advancing an ineffective assistance argument on direct appeal,
an appellant must present factual allegations that, if true, would
establish a violation of his [S]ixth [A]mendment right to
counsel. . . . Presented with a colorable claim, we remand for an
evidentiary hearing unless the record alone conclusively shows
that the defendant either is or is not entitled to relief.”)
(citations and internal quotation marks omitted). Mr. Stone has
certainly raised a “colorable” ineffectiveness claim.
Appellant’s October 8, 2020 Letter Brief, at 2.
The Court of Special Appeals reversed movant’s convictions based on
the trial court’s error related to the verdict form but refused to address the
merits of movant’s ineffectiveness claim – instead relegating it to “postconviction proceedings.” As the court stated:
Appellant asks us to find that trial counsel was ineffective. We
decline to do so. . . . [D]irect appeals are rarely the appropriate
venue to determine ineffective assistance of counsel claims.
“Post-conviction proceedings are preferred with respect to
ineffective assistance of counsel claims because the trial record
rarely reveals why counsel acted or omitted to act, and such
proceedings allow for fact-finding and the introduction of
testimony and evidence directly related to allegations of the
counsel’s ineffectiveness.” Mosley v. State, 378 Md. 548, 560
(2003). In Mosley, this [sic] court determined that “the
adversarial process found in a post-conviction proceeding
generally is the preferable method” when evaluating an
ineffective assistance of counsel claim. Id. at 562. This [sic]
court also acknowledged that there are limited circumstances in
which this court will review a claim on direct review. Id. at 567
...
For the reasons stated, by not [moving for a judgment of
acquittal] as Appellant thinks his trial attorney should have,
Appellant avoided the situation that would allow the jury to be
able to split on which theory applies and still convict him. That
13

is but one reason that this is not the “exceptional” case where
post-conviction [sic]4 review would be appropriate because of a
“blatant and egregious” performance by trial counsel. Id. at 562.
Stone v. State, 2021 WL 514287, at *8.
REASONS FOR STAYING THE MANDATE OF THE MARYLAND
COURT OF SPECIAL APPEALS
I.

Movant Has Satisfied the Standard for a Stay of the Mandate.
The Maryland Court of Appeals has refused to stay the issuance of the

mandate of the Court of Special Appeals. To obtain a stay from this Court,
movant must demonstrate “(1) ‘a reasonable probability’ that this Court will
grant certiorari; (2) ‘a fair prospect’ that the Court will then reverse the
decision below, and (3) ‘a likelihood that irreparable harm [will] result from
the denial of a stay.’” Maryland v. King, 567 U.S. 1301, 1301 (2012)
(Roberts, C.J., in chambers).
As explained below, movant has met all three requirements. First, the
legal issues presented are cert-worthy. The Sixth Amendment right to the
effective assistance of counsel is a “bedrock” constitutional guarantee.
Martinez v. Ryan, 566 U.S. 1, 12 (2012). The Court of Special Appeals’
illogical refusal to provide judicial review of movant’s ineffectiveassistance-of-counsel claim – on the ground that movant can raise the claim

4

The Court of Special Appeals clearly meant “direct” instead of “post-conviction.”
14

in “post-conviction proceedings” – is so fundamentally wrong as to justify
summary reversal by this Court.
A related issue – whether the Court of Special Appeals at least should
have remanded movant’s case for an evidentiary hearing on his
ineffectiveness claim before the trial court commences a retrial – likewise
warrants review by this Court. Several other lower courts routinely remand
for evidentiary hearings when a criminal defendant on direct appeal has
raised a “colorable” ineffectiveness claim requiring further factual
development. Movant certainly has at least raised a “colorable” claim.
In addition, as discussed below, the subsidiary issue of whether an
appellate court in a criminal case must address an insufficient-evidence
claim before reversing and remanding for a retrial based on a trial error has
divided the lower courts. This Court should resolve that widespread division
among the lower courts on an important double jeopardy issue.
Based on the egregious nature of the Court of Special Appeals’ flawed
disposition of movant’s ineffectiveness and insufficient-evidence claims,
movant also has demonstrated a “fair prospect” that this Court will, at the
very least, grant certiorari and remand for an evidentiary hearing on
movant’s ineffectiveness claim before the retrial commences.

15

Finally, movant clearly faces irreparable harm without a stay. If his
case is remanded for a retrial, his ineffectiveness and insufficient-evidence
claims will become moot if he is convicted at a retrial. See, e.g., People v.
Chipman, 370 P.3d 330, 336-37 (Colo. App. 2015) (holding that an error
occurring at the original trial cannot be challenged at a retrial; noting several
cases from other courts so holding); see also North Carolina v. Pearce, 395
U.S. 711, 721 (1969) (stating that if an appellate court reverses a conviction
and remands the case for a new trial, “the original conviction has . . . been
wholly nullified and the slate wiped clean”), overruled on other grounds by
Alabama v. Smith, 490 U.S. 794 (1989).
Furthermore, because there was insufficient evidence of the charge
in Count 9 at trial, it would violate the Double Jeopardy Clause to remand
for a retrial on that charge. Burks v. United States, 437 U.S. 1, 18 (1978).
II.

The Maryland Court of Special Appeals Deprived Movant
of His Only Opportunity for Judicial Review of His
Compelling Ineffective Assistance of Counsel Claim and
Related Insufficient-Evidence Claim.
The Court of Special Appeals refused to review the merits of

movant’s ineffectiveness claim because it did not believe the record was
sufficiently developed to permit such review. Instead of remanding for an
evidentiary hearing, as movant had requested, the court relegated movant to

16

raising the ineffectiveness claim (and related insufficient-evidence claim) in
“post-conviction proceedings.” Stone v. State, 2021 WL 514287, at *8.
The Court of Special Appeals’ fundamental error of logic is simple
and obvious. Now that movant’s sole conviction has been reversed, there is
no way – legally or practically – that he could raise his ineffectiveness claim
in a “post-conviction” proceeding under MD Code, Criminal Procedure, § 7101. Based on the state appellate court’s reversal of his sole conviction,
movant’s case is now in a “pre-conviction” posture. If he tried to file a postconviction motion, it surely would be dismissed on the ground that there is
no conviction or sentence for movant to challenge.
Movant clearly and repeatedly made that point to the Court of Special
Appeals before it rendered its decision, but that court simply ignored it –
and, in so doing, effectively denied movant of judicial review of his
ineffectiveness claim and related insufficient-evidence claim.
It bears repeating that this is not merely an “ineffectiveness” issue.
Ultimately, it concerns the fundamental issue of whether there is
constitutionally sufficient evidence supporting movant’s sole conviction at
trial. See Monroe v. State, 191 So. 3d 395, 403 (Fla. 2016) (“[T]he failure to
move for a judgment of acquittal when there are serious concerns pertaining

17

to the sufficiency of the evidence presented by the prosecution may
constitute ineffective assistance reviewable on direct appeal.”).
If movant’s trial counsel was ineffective by failing to move for a
judgment of acquittal, then the state appellate court should address the
merits of that insufficiency claim. Murray, 477 U.S. at 488 (“Ineffective
assistance of counsel . . . is cause for procedural default.”). As discussed
below, there is clearly insufficient evidence supporting that conviction, and
Double Jeopardy thus prevents a retrial. Burks v. United States, 437 U.S. 1,
18 (1978).
The appropriate remedy from this Court would be a ruling that the
Court of Special Appeals’ refusal to address both movant’s ineffectiveness
claim and the ultimate insufficient-evidence claim was not based on an
“independent and adequate state law ground” because it deprived movant of
his only opportunity for judicial review of those related federal
constitutional claims. See Henry v. Mississippi, 379 U.S. 443, 447 (1965)
(“A procedural default which is held to bar challenge to a conviction in state
courts, even on federal constitutional grounds, prevents implementation of
the federal right. Accordingly, we have consistently held that the question
of when and how defaults in compliance with state procedural rules can
preclude our consideration of a federal question is itself a federal

18

question.”). The Court of Special Appeals’ refusal to provide meaningful
judicial review of movant’s Sixth Amendment ineffectiveness claim and his
related due process insufficient-evidence claim was not based on a
“legitimate state interest.” Id. at 447-48 (“[A] litigant’s procedural defaults
in state proceedings do not prevent vindication of his federal rights unless
the State’s insistence on compliance with its procedural rule serves a
legitimate state interest.

In every case we must inquire whether the

enforcement of a procedural forfeiture serves such a state interest. If it does
not, the state procedural rule ought not be permitted to bar vindication of
important federal rights.”).
III.

Movant’s Trial Counsel Was Ineffective by Failing to Move for
a Judgment of Acquittal on the Continuous-Course-ofConduct Theft Charge.

The only evidence of movant’s commission of a theft offense was:
(1) The complainant’s identification of baseball cards and comic
books that the police seized from movant’s storage unit at Cecil
Mini-Storage and inside movant’s “abandoned” storage unit (#15)
at Whalen’s Storage (T1.77, 104; T2.20);
(2) A witness’s testimony that, on a single occasion, he helped
movant move boxes and plastic totes containing baseball cards
from movant’s own storage unit to a vehicle on an unspecified
date (T2.66-68, 70);
(3) A police officer’s testimony that he saw movant with an album of
baseball cards at Cecil Mini-Storage on October 15, 2018 (T1.8688, 90); and

19

(4) Another police officer’s testimony that movant had stated that he
saw abandoned boxes of baseball cards that he took when he
moved from Whalen’s Storage to Cecil Mini-Storage (T1.113).
None of this evidence showed how many acts of alleged theft movant
engaged in – which the prosecutor at trial acknowledged in his closing
argument: “It’s up to you to decide . . . whether you think it happened all at
once or whether it happened over a period of time. I can’t tell you which
one because no one knows which one, or at least no has told us which one
that is.” (T2.208) (emphasis added).
Movant’s trial counsel moved for a judgment of acquittal on certain
counts in the indictment but did not move for a judgment of acquittal on the
two alternate theft charges (T2.84-86, 88). Subsequently, after the jury was
deliberating, trial counsel for the first time stated, “I don’t even think there is
any evidence of continuing theft in this case. . . . For it [be] a continuing
theft, you have to show incident after incident after incident.” (T2.230.).
Counsel was correct.

Under Maryland law, the offense of continuing-

course-of-conduct theft has, as an element, the commission of multiple
discrete acts of thefts as part of a scheme and continuous course of conduct.
Dyson v. State, 878 A.2d 711, 723 (Md. Ct. Sp. App. 2005); State v. Hunt,
432 A.2d 479, 482-83 (Md. Ct. Sp. App. 1981). As the prosecutor admitted

20

at trial, there was no evidence supporting the prosecution’s theory of a
continuing-course-of-conduct theft. The evidence solely supported a
conviction of “unauthorized control” theft – yet the jury acquitted movant of
that version of the theft offense.
The record is clear that movant’s defense counsel at trial came to
realize that there was insufficient evidence that movant had committed a
continuing-course-of-conduct theft – but only after the time for moving for a
judgment of acquittal had passed. See Graham v. State, 601 A.2d 131, 140
(1992) (failure to move for a judgment of acquittal at the close of the
evidence waives a claim of insufficient evidence).
A criminal defendant possesses the right to the effective assistance of
counsel at a felony trial. Movant’s trial counsel clearly was ineffective in
failing to move for a judgment of acquittal on the charge in Count 9. See
Strickland v. Washington, 466 U.S. 668 (1984) (to prevail on an
ineffectiveness claim, a defendant must show that trial counsel’s “deficient
performance” caused “prejudice” to the defendant).

Showing both

Strickland prongs – deficiency and prejudice – is straightforward in this case
based on the existing record. The record clearly demonstrates that trial
counsel did not engage in any “strategy” in failing to move for a judgment of

21

acquittal on Count 9.5 Rather, he simply came to the realization that there
was insufficient evidence of a “continuing course of conduct” too late to
properly move for a judgment of acquittal.
Perhaps a jury rationally could have concluded that movant stole the
complainant’s property in a single episode, yet movant’s actual jury
acquitted him of that theory of the prosecution. The jury’s conviction based
on a finding of a “continuing course of conduct” – meaning multiple, distinct
thefts in separate episodes – was based on sheer speculation. Because “no
rational trier of fact could find guilt beyond a reasonable doubt” that movant
committed a continuing-course-of-conduct theft, he is entitled to a judgment
of acquittal. Jackson v. Virginia, 443 U.S. 307, 317 (1979).
For that reason, trial counsel’s deficiency in failing to move for a
judgment of acquittal prejudiced movant. There is at least a reasonable
probability that the trial court would have granted such a motion if it had
been made in a timely manner. And, even if the trial court had erroneously
denied it, at least trial counsel would have properly preserved the
5

The Court of Special Appeals’ hypothesizing that trial counsel may have had a
“strategic” reason for failing to move for a judgment of acquittal – “by not objecting as
Appellant thinks his trial attorney should have, Appellant avoided the situation that
would allow the jury to be able to split on which theory applies and still convict him,”
Appendix 30 – is illogical. If the trial court had granted a judgment of acquittal on the
continuing-course-of-conduct theft, the jury would have had but one theft offense to
consider (the very charge of which they acquitted movant). There was no conceivable
benefit in not moving for judgment of acquittal on Count Nine. In any event, such
hypothesizing merely was done to avoid reaching the merits of movant’ claim.
22

insufficient-evidence issue for appeal.
IV.

At the Very Least, Because the Record Supports a “Colorable”
Claim of Ineffective Assistance of Counsel, Movant’s Case Should
Be Remanded to the Trial Court to Conduct an Evidentiary
Hearing on That Claim Before Commencing a Retrial.
Alternatively, assuming that the Court of Special Appeals was correct

that the current record is not sufficiently developed to permit an appellate
court to meaningfully address the merits of the ineffectiveness claim,
movant’s case should be remanded to the trial court to conduct an
evidentiary hearing on the issue. Notably, even in cases in which a defendant
does have the opportunity to raise an ineffectiveness claim on postconviction review, several other appellate courts regularly remand on direct
appeal when a defendant has raised a “colorable” ineffectiveness claim
requiring further evidentiary development.

See, e.g., United States v.

Knight, 824 F.3d 1105, 1112 (D.C. Cir. 2016) (Kavanaugh, J.) (“This
Court’s typical practice on direct appeal . . . is to remand ‘colorable’ claims
of ineffective assistance to the district court.”); United States v. Ortiz-Vega,
860 F.3d 20, 28-29 (1st Cir. 2017) (where the record on direct appeal
contains “sufficient indicia of ineffectiveness . . . , we may remand the case
for proceedings on the ineffective assistance claim without requiring the

23

defendant to bring a separate collateral attack”). At the very least, movant
has established a “colorable” or “prima facie” ineffectiveness claim.
As it currently stands, movant’s case will be remanded to the trial
court for further proceedings (a retrial). The additional judicial resources
required for a brief evidentiary hearing on a discrete claim ineffectiveness
will hardly be an inefficient expenditure of such resources.
V.

There is a Widespread Division Among the Lower Courts
on the Subsidiary Insufficient-Evidence Issue Raised in this
Case.
There is a widespread division among the lower federal and state

appellate courts concerning the issue of whether, under the Double Jeopardy
Clause, an appellate court must address a claim of insufficient evidence
before reversing and remanding for a new trial based on a trial error. See
State v. Noll, 527 N.W.2d 644, 648 (Neb. App. 1995) (“Several courts have .
. . held that where an appellate court is presented with both a trial error and a
claim of insufficiency of the evidence, the court must address the
insufficiency claim [first]. . . . We recognize that opinions from various
other courts have held that an appellate court is not required to examine a
claim of insufficient evidence where it has reversed for trial error.”)
(collecting cases), overruled on other grounds by State v. Anderson, 605
N.W.2d 124, 136 (Neb. 2000). The court in Noll noted that the division has

24

arisen based on differing interpretations of this Court’s decision in
Richardson v. United States, 468 U.S. 317 (1984). Noll, 527 N.W.2d at 648.
That question is cert-worthy.
CONCLUSION
Movant respectfully requests that the mandate of the Court of Special
Appeals be stayed pending movant’s timely filing of a petition for writ of
certiorari. Movant has demonstrated that there is a reasonable probability of
a grant of certiorari and a fair prospect that this Court will reverse the
judgment of the Court of Special Appeals. Movant also has shown
irreparable harm will occur without a stay because he will be denied
meaningful judicial review of his ineffective assistance of counsel claim and
also face a retrial that violates double jeopardy (based on the insufficient
evidence of the continuous-course-of-conduct theft offense at his first trial).
Respectfully submitted,

/s/ Brent E. Newton
Brent E. Newton
Attorney at Law
19 Treworthy Road
Gaithersburg, MD 20878
202-975-9105
brentevannewton@gmail.com
Counsel of Record for Movant

25

CERTIFICATE OF SERVICE
I, Brent E. Newton, a member of the Bar of the Supreme Court of the
United States, certify that, on this 2nd of March, 2021, a copy of this motion
and the accompanying motion for leave to proceed in forma pauperis were
delivered via email to counsel for respondent:
Brenda Gruss
Assistant Attorney General
Chief of Criminal Appeals Division
Office of the Attorney General
200 Saint Paul Place, 17th Floor
Baltimore, Maryland 21202
bgruss@oag.state.md.us

/s/ Brent E. Newton
Brent E. Newton

26

